U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

March 17, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Big Time Vapes, Inc., et al. v. Food and Drug Administration, et al.,
No. 20-850
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December 18,
2020. The government’s response is now due, after two extensions, on March 29, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including April 28, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-0850
BIG TIMES VAPES, INC., ET AL.
FDA, ET AL.

JERAD WAYNE NAJVAR
NAJVAR LAW FIRM
2180 NORTH LOOP WEST
SUITE 255
HOUSTON , TX 77018
281-404-4696
JERAD@NAJVARLAW.COM
J. GREGORY TROUTMAN
TROUTMAN LAW OFFICE, PLLC
4205 SPRINGHURST BOULEVARD
SUITE 201
LOUISVILLE, KY 40241
502-412-9179
JGTATTY@YAHOO.COM

